<html>
<title> - THE NATIONAL ZOO OF TODAY AND TOMORROW</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
THE NATIONAL ZOO OF TODAY AND TOMORROW--AN INNOVATIVE CENTER FOCUSED ON 
            THE CARE AND CONSERVATION OF THE WORLD'S SPECIES

=======================================================================

                                HEARING

                               BEFORE THE

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                 Held in Washington, DC, April 2, 2014

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet
                             www.fdsys.gov

                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
87-961                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0f687f604f6c7a7c7b676a637f216c606221">[email&#160;protected]</a>  


                   COMMITTEE ON HOUSE ADMINISTRATION

   CANDICE S. MILLER, Michigan, 
             Chairman

ROBERT A. BRADY, Pennsylvania, Ranking Minority Membersissippi
ZOE LOFGREN, California              PHIL GINGREY, M.D., Georgia
JUAN VARGAS, California              AARON SCHOCK, Illinois
                                     TODD ROKITA, Indiana
                                     RICHARD B. NUGENT, Florida

                           Professional Staff

    Sean Moran, Staff Director
  Kyle Anderson, Minority Staff 
             Director


THE NATIONAL ZOO OF TODAY AND TOMORROW--AN INNOVATIVE CENTER FOCUSED ON 
            THE CARE AND CONSERVATION OF THE WORLD'S SPECIES

                              ----------                              


                        WEDNESDAY, APRIL 2, 2014

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:43 a.m., in Room 
1310, Longworth House Office Building, Hon. Candice S. Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Harper, Gingrey, Schock, 
Nugent, Brady, Lofgren, and Vargas.
    Staff Present: Sean Moran, Staff Director; Peter 
Schalestock, Deputy General Counsel; Yael Barash, Legislative 
Clerk; Bob Sensenbrenner, Senior Counsel; Mary Sue Englund, 
Director of Administration; Erin Sayago, Communications 
Director; John Clocker, Deputy Staff Director; Kyle Anderson, 
Minority Staff Director; Matt Pinkus, Minority Senior Policy 
Advisor; Matt DeFreitas, Minority Professional Staff; Khalil 
Abboud, Minority Deputy Counsel; Thomas Hicks, Minority Senior 
Counsel; Mike Harrison, Minority Chief Counsel; Greg Abbott, 
Minority Professional Staff; and Eddie Flaherty, Minority Chief 
Clerk.
    The Chairman. I now call to order the Committee on House 
Administration's hearing regarding the Smithsonian National 
Zoological Park. The hearing record will remain open for 5 
legislative days so that members might submit any materials 
that they wish to be included therein.
    The Chairman. And a quorum is present, so that we will 
proceed.
    This hearing is for the committee to receive an update on 
the current health and management of the National Zoo, as well 
as to discuss the important science and research activities 
regarding endangered species and the National Zoo's overall 
contribution to the world's conservation efforts.
    I certainly want to thank the panel of witnesses that we 
have here for taking time to appear before the committee today. 
Each of our witnesses has dedicated years to the pursuit of 
science, conservation, and the passion to share knowledge of 
the world's species with others around the world.
    The Smithsonian, based in our Capital, is the largest 
museum and research complex in the world. It includes 19 
exceptional museums and galleries, as well as numerous 
scientific research centers, and today we will be examining one 
of the most popular Smithsonian facilities, the National Zoo, 
which is home to one of our Nation's and the world's most 
unique and fascinating living collections.
    The zoo was created actually by legislation signed into law 
by President Cleveland on March 2nd of 1889, and so it has a 
unique roll as a Federal zoo, supported by the taxpayers. It is 
a zoo truly provided for and by the people. Within its unique 
role as the Federal zoo, the National Zoo receives the majority 
of its funding from Federal appropriations. This funding is one 
of the many ways our Nation exercises our commitment to 
stewardship and the pursuit of knowledge.
    It is the Congress' role to ensure that taxpayers' dollars 
are allocated responsibly and the commitment to stewardship 
behind those dollars is being met. This role has become 
increasingly important as the zoo works to manage its 
resources, to maintain the health and the safety and overall 
welfare of the animals in the zoo's care, as well as visitors, 
employees, and their volunteers.
    Actually, last week, I have a monthly cable show, and I had 
as my guest Dr. Murray, who is the chief veterinarian for the 
zoo, and I told her she had the coolest job, I thought, in the 
entire Capital here. But it was very interesting talking to her 
about the care of all of these animals. She mentioned that the 
National Zoo is actually working with the Detroit Zoo, which I 
am so very proud of, working with a technique that they are 
using to monitor the heart rate and the rhythm in gorillas, and 
that some of the information you are learning there actually 
has transference to humans. It was very, very interesting.
    I look forward, certainly, to hearing from the director of 
the National Zoo on how his team has pulled together and met 
the challenges of being a world-class zoo. It is clear to 
anyone who visits that the animals at the zoo are incredibly 
well cared for. And while there have been some recent news 
stories regarding animal deaths, the deaths, first of all, are 
most often of natural causes, and many animals are exceeding 
their normal lifespans.
    Zoology, like all things, is never perfect. Sometimes an 
unfortunate incident happens. And the zoo, I believe, has 
demonstrated their ability to respond and to identify problems 
and to implement improvements. Overall, the National Zoo has 
been successful in maintaining the health of the animals in 
their care at the very highest of levels as demonstrated by 
their repeated accreditation by the Association of Zoos and 
Aquariums. This accreditation reflects the high standards of 
animal care set by the zoo and its staff.
    For the last 125 years, the National Zoo has improved its 
facilities, the living collection, its participation in the 
worldwide scientific community, and focused on advanced 
species-savings research.
    The National Zoo encompasses a 163-acre zoo park, as well 
as a Smithsonian Conservation Biology Institute campus in Front 
Royal in Virginia, which maintains a research-based collection 
on 3,200 acres. The National Zoo's mission is to provide 
engaging experience with animals and to create and share 
knowledge that saves wildlife and habitats, and its vision to 
save species from extension.
    Through a coordinated effort, both the National Zoo Park 
and the Front Royal campus care for approximately 2,000 
animals, representing over 400 species, of which 50 are 
threatened or endangered. The National Zoo is a national 
treasure providing a unique experience, allowing visitors the 
opportunity to roam and to see animals from all different 
regions of the world and discover all sorts of species that 
inhabit our Oceans, our lakes, our trees, and our sky.
    The National Zoo sees up to 2million visitors annually who 
have access free of charge--I think that is an important thing 
to note, again, free of charge--and the zoo works to engage the 
local, national, and international communities by preserving 
wildlife and teaching the responsibility we all share for its 
conservation.
    The Smithsonian Conservation Biology Institute campus in 
Front Royal, Virginia, has an equally, if not more important 
role. The Front Royal campus is home to various endangered 
species and is the nexus as well for the Smithsonian's global 
efforts to conserve species as well as to train current and 
future generation of conservationists.
    So today we look forward to receiving an update from the 
leaders of the National Zoo and its primary research arm, the 
Smithsonian Conservation Biology Institute, and discuss with 
them how Federal funding is being used, the zoo's operations 
and plans for the future, as well as hear from the directors on 
the important and noteworthy conservation research and science 
activities undertaken by the zoo.
    And we will also hear from the president and CEO of the 
Association of Zoos and Aquariums, a group which has 
established high professional standards to review a multitude 
of areas beyond the quality of animal care, conservation, and 
research, such as viability of the zoo's governing authority, 
physical facilities, safety, staffing, and guest services.
    Zoos make the journey to learn about various species 
accessible and offer us the opportunity to see an animal 
firsthand. They also provide the chance for us to encounter an 
animal that we never knew even existed. Zoos offer us all the 
knowledge to learn about the world around us and be caretakers 
for what is entrusted to us, and that is something I believe 
that is beyond value.
    So again this committee is looking forward to hearing from 
our three witnesses, and at this time I would like to turn to 
the ranking member for his opening statement. Mr. Brady.
    Mr. Brady. Thank you, Madam Chair. Thank you for scheduling 
today's hearing on the Smithsonian National Zoological Park.
    The visiting season in Washington has already begun and 
this means more visitors to the zoo's outstanding facilities on 
Connecticut Avenue. And while the public does not see it 
directly, the Smithsonian Conservation Biology Institute, a 
part of the zoo's complex located in Front Royal, Virginia, 
continues its groundbreaking research and educational 
activities on conservation and the preservation of endangered 
species.
    On this committee we are always concerned about the safety 
of visitors, the staff at the zoo, and the safety and care of 
the animals and the collection, and the level of Federal 
funding to support that. We have been assured that Federal cuts 
imposed by the sequestration and other legislation would not 
impact care of the animals, and I look forward to hearing our 
witnesses today to address that important issue.
    We have periodically approved construction projects to meet 
the zoo's challenging needs, and we have regularly reminded the 
Smithsonian Board of Regents of the necessity of keeping 
admission to the Smithsonian facilities, including the zoo, 
free to the American people. I remain strongly committed to 
that priority.
    I welcome today's witnesses and look forward to your 
testimony.
    The Chairman. I thank the gentleman.
    Are there any other members that wish to provide an opening 
statement? Yes, the gentleman from California is recognized.
    Mr. Vargas. Thank you very much, Madam Chair.
    My comment, and I would like to hear from you during your 
testimony, if possible, or I will ask you a question later, is 
I think you are doing a great job and we at the San Diego zoo 
are very proud of it. We think it is the best zoo in the world. 
I am sure others would argue about that. And we have been 
members forever. And that is why I was so scandalized when the 
Copenhagen zoo killed Marius, a healthy giraffe, and then fed 
it to the lions, and then later on killed four other lions. And 
I think that was outrageous.
    I would like to know, though, from you if it was something 
that was necessary, one; and secondly, why didn't we help if we 
could, some zoo in the United States. They said that no one 
would take them. And I would like to hear a little bit about 
that. I think it has captured our imagination in a very 
negative way.
    And again, I thank you for the opportunity to speak. Thank 
you, Madam.
    The Chairman. I thank the gentleman very much.
    Any other members have an opening statement? If not, before 
I formally introduce our witnesses and begin, I am going to 
take a moment of personal privilege here because I am like 
everybody else, I am addicted to this panda webcam, looking at 
Bao Bao, and who just yesterday ventured outside of her 
mother's yard for the first time, and I asked my staff to get 
the video clip of that. We will see if it works.
    [Video shown.]
    Look at that. Unbelievable. There she is. Well, all right, 
we don't want to go on too long with this clip. You like the 
clip? All right, great.
    Mr. Brady. Looking at everybody here.
    The Chairman. I read that on the airplane coming here 
yesterday and I said, oh, my gosh, we are going to have this 
hearing tomorrow, we have got to see the clips of Bao Bao going 
outside. Okay, at any rate, that gives you a sense of some of 
the wonderful, wonderful things they are doing at the zoo.
    Let me formally introduce our witnesses now. And first of 
all, Dennis Kelly, of course, is the director of the 
Smithsonian's National Zoo. He is responsible for overseeing 
the 163-acre facility in the Rock Creek Park, as well as the 
3,200-acre Smithsonian Conservation Biology Institute campus in 
Front Royal, Virginia. He is also responsible for managing the 
zoo's research programs and oversees education programs 
coordinated by the zoo's nonprofit membership organization, 
Friends of the National Zoo, and in 2011 he was elected to the 
Association of Zoos and Aquariums Board of Directors.
    Then we will hear from Dr. Steven Monfort, who was 
appointed as the director of the Smithsonian Conservation 
Biology Institute in January 2010. The facility, headquartered 
in Front Royal, Virginia, serves as the focal point for the 
Smithsonian's effort to use science-based approaches to 
conserve species and train future generations of 
conservationists around the world. He has spent his entire 
career working within the zoological community and has been 
with the Smithsonian since 1986, serving in many roles, 
including veterinarian, research scientist, educator, 
conservationist, and executive-level administrator.
    And then we will hear from Mr. Jim Maddy, who is president 
and CEO of the Association of Zoos and Aquariums. He previously 
served 9 years as the president of the National Park 
Foundation, president of the League of Conservation Voters, and 
was the first executive director of the Western Governors' 
Association. He also currently serves as the chairman of the 
board of directors for the Center for Clear Air Policy. As 
president and CEO of the AZA, Mr. Maddy has raised a positive 
profile of the AZA accredited zoos and aquariums as drivers of 
tourism and economic development, as leaders in animal care and 
welfare, and as key players in the conservation of wildlife and 
wild places.
    So we do have all of your written testimony, and again we 
appreciate you all attending today. And we will start with Mr. 
Kelly.

 STATEMENTS OF MR. DENNIS KELLY, DIRECTOR, NATIONAL ZOOLOGICAL 
 PARK, SMITHSONIAN INSTITUTION; DR. STEVEN MONFORT, DIRECTOR, 
    SMITHSONIAN CONSERVATION BIOLOGY INSTITUTE, SMITHSONIAN 
INSTITUTION; AND MR. JIM MADDY, PRESIDENT AND CEO, ASSOCIATION 
                     OF ZOOS AND AQUARIUMS

                   STATEMENT OF DENNIS KELLY

    Mr. Kelly. Madam Chair, Ranking Member Brady, and members 
of the committee, thank you so much for this opportunity to 
talk about the zoo, about the Conservation Biology Institute, 
and to talk about our stewardship of an important living 
collection of animals, and our vital research and conservation 
efforts.
    Simply put, our job, our mission, our role is to save 
species. However, our number one priority, day in, day out, 24 
hours a day, 365 days a year, is the welfare of the animals in 
our collection and human safety. We use five distinct oversight 
processes to ensure great animal care and safety, including a 
robust Institutional Animal Care and Use Committee, annual 
inspections and guidance from the USDA Animal and Plant Health 
Inspection Service, advice and inspections from OSHA, an annual 
Smithsonian safety and health inspection, and as you will hear 
from Mr. Maddy, accreditation by the Association of Zoos and 
Aquariums.
    Last December we had several public reports about animal 
welfare issues at the National Zoo. The issue actually began 
last summer when a volunteer notified me about her concerns 
about animal welfare decisions at the Cheetah Conservation 
Station department. I immediately directed our Animal Care and 
Use Committee to investigate. The IACUC, as we call it, 
concluded last fall that some of the volunteer's concerns had 
merit, and they made 25 observations and recommendations. I 
agreed with 24 of those observations and recommendations, and 
it is important to note that the animal care team had already 
addressed or were in the process of implementing appropriate 
changes. There were no egregious surprises.
    Now, it is my judgment that some of the problems in Cheetah 
Conservation Station resulted from staffing imbalances that 
temporarily stressed our system. So in late 2013, I initiated a 
three-part program I called Speed Up, Slow Down, and Rebalance, 
and that program has provided relief to animal care staff.
    Human resources staff, at my direction, has given high 
priority to filling vacant animal keeper, biologist, curator, 
veterinarian, and nutritionist positions, and already seven new 
animal care hires or promotions have been completed, and 10 
more recruitments are in process. So I assure you that we 
provide great care for our animals and we operate safely.
    As part of the Smithsonian, the zoo and the Conservation 
Biology Institute do rely on Federal appropriations for the 
majority of our funding needs. However, in order to realize our 
mission to operate a safe environment and to maintain our role 
as a leader in animal care, we must and will grow alternative 
funding sources. Since my appointment 4 years ago, we have 
focused on raising more resources from private research grants 
and government research grants and contracts to fund our 
research and conservation. We have focused on philanthropy from 
private and corporate donors. And we have generated income from 
sales of food and merchandise and stuffed panda bears and even 
a new carousel.
    So I am pleased to report that all of these sources of 
revenue have grown over the last 4 years, and while these 
sources can supplement our Federal appropriation, they cannot 
replace it. And as Secretary Clough and the regents often 
remind me, my job is to raise more revenue from these 
alternative sources in the future.
    The National Zoo and the Smithsonian Conservation Biology 
Institute play a crucial role in one of the Smithsonian's four 
grand challenges, and that is understanding and sustaining a 
biodiverse planet. We are guiding this mission by three 
leadership strategies. Number one, we are saving species 
through science. Number two, we are training the next 
generation of conservation biologists. And number three, we are 
providing a world-class educational experience and a great 
visitor experience right here in Washington, D.C. In just a 
moment, Dr. Monfort is going to speak about the first two of 
those strategies, but I am going to conclude my testimony with 
a few words about our plans for a great public experience here 
at the zoo in Washington.
    Did you know that the National Zoo is the favorite 
destination in Washington for families with children? Now, I 
never want to give up this hard-won leadership position because 
we can use this position to deliver an effective, efficient, 
informal and formal education message for learners of all ages. 
We coordinate this conservation message with K through 12 STEM 
curriculum, and to stay relevant and efficient we are using 
both Federal and private funding to modernize our exhibits and 
our animal care infrastructure.
    During the last 10 years we have invested more than a 
quarter of a billion dollars in our beloved institution. That 
sounds like a lot of money and it is, but we are 125 years old, 
and as Madam Chair said, and we still have a ways to go to 
upgrade these important facilities. And we are using Federal 
and private sources and technology to expand our reach around 
the country and around the world. Unique assets like panda-cam, 
sponsored by Ford Motor Company Fund, engage and delight 
millions of virtual visitors around the globe, while at the 
same time educating and inspiring global audiences about 
conservation and saving species.
    The zoo's highest priority is and always will be the 
welfare of our animals in our care and the safety of our 
visitors and staff. So I am excited and grateful for our 
Federal support for collection stewardship, scientific research 
and conservation, professional training, and a great family 
experience.
    Mr. Vargas, I will be happy to address your question in the 
Q&A, if that is appropriate.
    Mr. Vargas. Thank you.
    Mr. Kelly. Thank you very much.
    The Chairman. Thank you, Mr. Kelly.
    [The joint statement of Mr. Kelly and Dr. Monfort follows:]

    [GRAPHIC] [TIFF OMITTED] T7961A.001
    
    [GRAPHIC] [TIFF OMITTED] T7961A.002
    
    [GRAPHIC] [TIFF OMITTED] T7961A.003
    
    [GRAPHIC] [TIFF OMITTED] T7961A.004
    
    [GRAPHIC] [TIFF OMITTED] T7961A.005
    
    The Chairman. We now turn to Dr. Monfort.
    Dr. Monfort. Madam Chair, distinguished members, thank you 
so much for the opportunity today to appear before the 
committee to testify about our efforts to save species through 
science and to train the next generation of conservation 
professionals.
    You may not know that in the late 1960s the National Zoo 
established one of the world's very first stand-alone zoo-based 
research departments and we cofounded an entirely new 
discipline of science known as zoo biology, a discipline that 
was specifically aimed at using science to improve animal 
management, reproduction, and welfare. Today, in fact, science-
based management is considered the gold standard of practice 
for all modern zoos, and that transformation of the zoo 
profession can be traced directly to a lineage of National Zoo 
scientists and the generation of colleagues that they mentored 
and placed in positions worldwide.
    Additionally, in the early 1980s, our scientists helped 
usher in another entirely new discipline of science called 
conservation biology. And this is a discipline that is based on 
the premise that biological diversity and the functioning of 
ecosystems are of benefit to current and future human 
societies. Before the first textbooks in this discipline were 
even published in the late 1980s, the National Zoo and its 
scientists had already begun reintroducing golden lion tamarins 
back into the Atlantic coastal rain forest of Brazil. And today 
this remains as one of the greatest success stories in modern 
zoo and conservation history, joined by other programs that 
were led or assisted by National Zoo scientists, including 
programs like the black-footed ferret, the California condor, 
the Florida panther, and others.
    Today, roughly 20 percent of the world's accredited zoos in 
Europe and America have dedicated research departments, but 
only a very small number of those actually employ full-time 
Ph.D.-level scientists and conservationists. Through our 
generous Federal appropriations, we employ 33 Federal Ph.D.-
level scientists and veterinarians, and by effectively 
leveraging our Federal appropriations with grants and 
philanthropy we are able to support an additional 14 non-
Federal scientists, 25 postdoctoral fellows, and 70 graduate 
students.
    All told, the National Zoo has more than 200 scientific 
personnel involved in understanding and sustaining a biodiverse 
planet working with partners in more than 25 countries 
worldwide.
    Saving species is hard work and it requires fundamental 
knowledge about the complexity and diversity of species 
biology, and the truth is, that knowledge is sorely lacking for 
hundreds of species that already are reliant upon human care in 
zoos. The time to save a species is not when they are down to 
their last couple of dozen animals, which was the case for 
species like the Przewalski's horse, the black-footed ferret, 
and California condor.
    Conservation success really requires a combination of 
things: trained scientists, access to animals, funding, of 
course, and appropriate facilities designed specifically to 
study and manage wildlife species before they become 
threatened.
    At the Smithsonian's National Zoo and Conservation Biology 
Institute, we are creating a whole host of new alliances. We 
are pursuing aggressive animal management strategies and 
investing in conservation science to achieve significant and 
expanded conservation outcomes. Our science ranges from saving 
species in human care, but also includes conserving key 
wildlife habitats, to understanding animal migration patterns, 
and even identifying disease pandemics that threaten both 
humans and wildlife alike.
    Our scientists have made many important discoveries, 
including the identification of the elephant herpes virus, 
which is known to cause up to one-third of juvenile elephant 
mortality around the world, the Chytrid fungus, which is 
potentially responsible for up to a third of amphibian species 
becoming extinct across the planet, and we possess the world's 
foremost wildlife reproduction laboratories that have done 
things like helped us produce Bao Bao, of course, but other 
species, like elephants and even sea corals.
    But savings species also requires the commitment of well 
trained professionals, and over the past 40 years the National 
Zoo has pioneered training of more than 6,000 trainees 
worldwide, many of whom have gone on to become leaders in the 
conservation field in more than 30 countries worldwide.
    Now, in partnership with George Mason University, we are 
very proud of our Smithsonian-Mason School of Conservation, 
which is located on our 3,200-acre campus in Front Royal, 
Virginia, and this program builds on our legacy and reflects 
our philosophy that the best way to prepare for an uncertain 
future is to foster a new, a better equipped, and highly 
motivated generation of conservation professionals that will 
work to conserve the living natural resources that we all need 
to survive ourselves.
    This is the core principle of the discipline of 
conservation biology and the role that is emerging within zoos 
worldwide. And we believe that it is the achievements of our 
trainees that will provide the best hope for long-term success 
in achieving our mission of understanding and sustaining 
biodiversity for the benefit of all of us.
    Thank you very much for the opportunity to testify.
    The Chairman. Thank you, very much.
    And we now turn to Mr. Maddy for his testimony.

                     STATEMENT OF JIM MADDY

    Mr. Maddy. Thank you, Chairwoman Miller and Ranking Member 
Brady, for the opportunity to testify before the committee 
today about the AZA accreditation process.
    AZA's 224 accredited zoos and aquariums annually see more 
than 182 million visitors. Collectively, they generate more 
than $21 billion in annual economic activity and support more 
than 204,000 jobs across the country.
    Let me just pause and say that when I look up at the dais, 
I see elected officials. I see Members of Congress, and members 
of the committee, but I also see the Georgia Aquarium, the 
Detroit Zoo, and the Philadelphia Zoo, and the Happy Hollow Zoo 
in San Jose. So it is a pleasure to be here and have the 
opportunity to speak about the National Zoo.
    Over the last 5 years, AZA-accredited institutions 
supported more than 1,000 field conservation and research 
projects that cost about $160 million annually, and our members 
are operating those programs in over 100 countries. In the last 
10 years, these accredited zoos and aquariums formally trained 
more than 400,000 schoolteachers supporting science curricula 
with effective teaching materials and hands-on experiences. 
School field trips and programs annually connect more than 15 
million students with the natural world. This is very 
important, because a recent National Research Council study 
found that people learn as much as 95 percent of their science 
in informal settings such as AZA accredited zoos and aquariums.
    At the heart of the AZA mission is the accreditation 
process that we are here to talk about and focus on today, 
which ensures that only those zoos and aquariums that meet the 
highest standards can become members of AZA. In the past 40 
years, hundreds of inspectors have devoted more than 200,000 
hours to the accreditation process. The AZA accreditation 
process is rigorous and unbiased. It is a lengthy evaluation 
involving self-evaluation, onsite inspection, and peer review, 
and it really has stood the test of time.
    The standards are continuously evolving, getting stronger 
as we learn more about the needs of the animals in our care. 
Accreditation helps to develop public confidence through a 
thorough, measured, and documented audit that establishes 
whether an institution meets or exceeds current professional 
standards and as established by the association.
    This is accomplished by a periodic comprehensive review and 
site inspection conducted by zoological experts in operations, 
animal management, and veterinary medicine. Once granted, AZA 
accreditation is a publicly recognized badge signifying 
excellence in and commitment to animal management and welfare, 
veterinary care, ethics, physical facilities, staffing, 
conservation, education, safety and security, finance, and 
support organizations. Conversely, denials of accreditation 
should lead to improvements in identified areas and a 
concurrent increase in cooperation and support from governing 
bodies and other organizations.
    Each institution that goes through accreditation does so 
with the understanding that the process is confidential. In 
keeping with that standard operating procedure, I want to 
briefly describe how the overall AZA accreditation process 
works.
    First, we carefully select the Accreditation Commission 
members who have the expertise to evaluate each zoo and 
aquarium. These are experts and leaders in their field, have 
been for many years. They are educated and experienced in zoo 
and aquarium operations, animal management, and veterinary 
medicine. There are 12 experts on the Accreditation Commission. 
The commission evaluates every zoo and aquarium to make sure it 
meets the highest standards for animal management and care, 
including living environments, social groupings, health, and 
nutrition. The commission also ensures that animals are 
provided with enrichment which stimulates each animal's natural 
behavior and provides variety in their daily routines. We 
evaluate veterinary programs, their involvement in conservation 
research, education programs and their safety policies and 
procedures.
    Because a zoo or aquarium needs a strong foundation in 
order to continue to meet those high standards, we also look at 
finances. We look at the operation of the governing authority 
and any support organizations, such as the Friends of the Zoo.
    Every candidate for accreditation fills out a detailed 
questionnaire that is a self-evaluation process that comes to 
professional staff in my organization, which reviews that and 
comments on that. After the Accreditation Commission studies 
that application, the team of inspectors visits the zoo or 
aquarium in person. Each team includes at least one 
veterinarian, along with animal and operations experts as well. 
They produce a written and detailed report. The commission 
meets twice a year to consider all of those candidates for 
accreditation, and when they meet, the director of the 
institution appears before the commission to answer questions 
and resolve issues.
    They examine the application, the supporting documents 
submitted by the zoo or aquarium inspection team's report, and 
any information received from outside individuals and 
organizations, including U.S. Department of Agriculture and 
often other Federal agencies that have had opportunities to 
comment on the zoo.
    The zoo and aquarium senior officials must appear before 
that Accreditation Commission. Each zoo and aquarium must keep 
up with these changes to remain AZA accredited. As I explained 
to the gentleman at the table and other members of our 
association, if you just keep doing what you are doing, 5 years 
later you won't be accredited because the standards are 
constantly evolving and constantly getting stronger.
    I want to conclude by saying that the National Zoo is 
highly respected within the AZA community and among the public 
for its leadership in scientific research, its commitment to 
conservation. It is unique among AZA-accredited zoos and 
aquariums, as the chair mentioned, in that it truly belongs to 
all Americans by virtue of being a member of the Smithsonian 
family.
    I also want to commend Dennis Kelly for his outstanding 
leadership at the National Zoo. Dennis is a member of the AZA 
Board of Directors as an expert voice on a range of issues, 
particularly including conservation and safety. Dr. Monfort 
also is a member of the association and is a leader in our 
scientific endeavors and our science committees.
    Thank you for the opportunity to testify on this important 
matter. I am happy to answer any questions you may have. Thank 
you very much.
    The Chairman. Thank you very much.
    [The statement of Mr. Maddy follows:]

    [GRAPHIC] [TIFF OMITTED] T7961A.006
    
    [GRAPHIC] [TIFF OMITTED] T7961A.007
    
    [GRAPHIC] [TIFF OMITTED] T7961A.008
    
    [GRAPHIC] [TIFF OMITTED] T7961A.009
    
    The Chairman. I appreciate all of the witnesses, and I 
think I will start with Dennis Kelly.
    Mr. Kelly, I had the opportunity to visit the zoo with you 
not too long ago, and it is just a remarkable place. And as we 
mentioned at the outset, it is unique because the funding comes 
from the Federal Government.
    I am just wondering, do you think that changes your vision 
for a zoo? I mean, if you were running a zoo that was not 
federally financed, how does that change, perhaps, your master 
plan and how you do things there at the zoo as well? And a two-
part question, because really showing the Bao Bao, and I am 
glad you mentioned in your opening comments about Ford Motor 
Company, a Michigan company who is very, very engaged. They are 
sponsoring the panda exhibit. I know they just recently gave 
you a new truck.
    I just mention that as one of the many, many corporate 
citizens and sponsors, donors the National Zoo, and average, 
everyday citizens as well. And so really, even though you are 
getting the money from the Federal Government, the amount of 
money that you are raising privately is also really quite 
remarkable and a tribute, I think, to the leadership that you 
have exhibited at the zoo. So perhaps you could talk a little 
bit about the financing part of that.
    Mr. Kelly. Yes. Thank you, Madam Chair, for that question.
    First, I have run another zoo, Zoo Atlanta, in the past. 
And here, as in this role, I feel a particular responsibility 
to each and every citizen of the United States, every taxpayer. 
So the work we do is in cognition of it has to be as relevant 
to the family in Rock Creek or in Cleveland Park, but it also 
has to be relevant to families in Kansas and Hawaii and 
California. And so our work is focused on science, it is 
focused on conservation, it is focused on training the next 
generation, as well as interpreting it to the visitors who come 
to Washington and experience the zoo.
    So every decision we make is in cognition that our owners 
are every American citizen. In that regard, we reach out to 
people like Ron Kagan at the Detroit Zoo and we cooperate with 
him on his efforts. For example, you mentioned research on 
gorilla heart disease, and that collaboration is very valuable. 
We are collaborating with not just zoological colleagues, but 
colleagues in China, for example, with direction of the State 
Department and the Fish and Wildlife Service, to actually make 
sure that there are more pandas like Bao Bao born.
    Having said that, we are consciously aware of the fact that 
we should and must leverage Federal resources, so 
collaborations with great partners like Ford Motor Company, 
like Microsoft, like the Coca-Cola Company, even international 
companies potentially like international airlines that want to 
build a presence, but also contribute to our mission, we find 
those to be powerful and leveraging, and we think that is a 
good way to use the taxpayer dollars. So you will see more of 
that in the future--leveraging. And my colleagues at the San 
Diego Zoo and Detroit Zoo are using the same strategies. But we 
think it is a win-win for conservation. At the end of the day, 
we all want to save species.
    The Chairman. You know, you mentioned Microsoft, and that 
also brought me back to something that you had mentioned, that 
the zoo is the number one destination in D.C. for groups of 
families with children. And just because of the webcam, the 
panda-cam that has been such an incredible success, could you 
just talk a little bit about how you are utilizing technology 
to be able to enhance the experience for folks that just, you 
know, can't afford to come to Washington, D.C.? But really, 
again, a zoo is such a National treasure, how can we get that 
kind of information out to teachers, teacher resources, or what 
have you. Perhaps you could expand on that a bit.
    Mr. Kelly. Great question. We are actually utilizing 
Federal resources. So we have more critter cams than any other 
zoological institution in the world. That is because of our 
Federal support and Federal infrastructure. So panda-cam is 
one. It is interesting that the very first critter cam was 
actually the naked mole rat, and that is still today our----
    The Chairman. The what?
    Mr. Kelly. The naked mole rat. The naked mole rat is a 
fascinating creature that we have been studying for years.
    The Chairman. One of my personal favorites, I know.
    Mr. Kelly. But the naked mole rat camera was the very first 
one. But it is interesting because the naked mole rat lives to 
be about 30 years old and it is one of the few species in which 
cancer has never been detected. It lives its life underground, 
it is a mammal, and yet we have never detected cancer. But that 
camera is the way to tell that story. So collaborating with 
people like Microsoft and Discovery Channel and Smithsonian 
Channel is a way that we are building that awareness of 
conservation.
    And if my might, Mr. Maddy and AZA have done work with 
Microsoft in a unique way, that, if I may, get him to explain 
how Microsoft has partnered with accredited zoos.
    The Chairman. Sure.
    Mr. Maddy.
    Mr. Maddy. We are actively involved with Microsoft now, 
with a family-friendly game called Zoo Tycoon. The original 
version of that, very popular, millions and millions of 
families have purchased that and played that game. The zoo in 
the game did not meet our accreditation standards, and so it 
was a lot of fun over the last couple of years to work with 
Microsoft engineers and others to redesign the game so that all 
of the animal care practices, all of the animal welfare 
practices, the veterinary care, and everything else in this 
simulation actually simulates the best standards of animal care 
and welfare as a learning tool. A lot of fun, and hopefully a 
meaningful educational experience for millions of families.
    The Chairman. Very good. I am sort of boring in on these 
questions because, you know, we are here, we work here every 
day and we see these fantastic facilities that we have here in 
the Nation's Capital. And I come from southeast Michigan that 
was number one in everything you didn't want to be number one 
in during the very painful economic transition, and our kids 
just can't afford to hardly get on a bus and come to a field 
trip anymore. I use that as sort of an example of how we are, 
in all of the Smithsonians, really trying to reach out around 
the country and the world, really, to bring this experience.
    And with that, and that is why I mentioned, I thought it 
was worth noting, just saying that there is no fee for people 
to come into the zoo. I think that is such an important thing.
    And I would ask the next question to Dr. Monfort about 
Front Royal, because I think you only open it to the public on 
a very limited basis. I am not sure how often. But I know you 
are thinking about opening it a bit more. And as you mentioned, 
all of the Ph.D.s that you have there, and all the science and 
research that is going on there, and I guess this is my 
question. I am assuming that one of the reasons it is not open 
to the public more is because you think it might impact in some 
way your work, your very important work that you are doing 
there. So what is your thought going forward on having any more 
public availability to go there, or again, using electronic 
access to be able to really open it up as much as you possibly 
can?
    Dr. Monfort. That is a great question.
    First of all, the facility is very unique in that we are a 
science-based facility, so the structures that we build are 
built for functionality, for the ability to do naturalistic 
breeding. Animals that need herd setups can be in herds or 
social groupings. Or in order to conduct science, we have 
special facilities that are built just for, say, carnivores, or 
for hoofed animals, for example. In many cases those research 
projects are being conducted in a way that having a lot of 
visitation might disturb the research that is going on.
    Having said that, we do work very hard to try and open our 
facility when it is possible. One of the ways we have done that 
is through our new partnerships. So when we did our master plan 
about 7 or 8 years ago, we created partnership zones, and the 
idea, the result of that ended up being initially our 
partnership with George Mason University, and now we have a 
school there which attracts, you know, quite a number of people 
that come there for both undergraduate education and 
professional continuing education, but also for holding special 
events, and things of that nature.
    We have a new partnership with NEON, which is the National 
Ecological Observatory Network, and so we are one of only 20 
core sites in the United States, part of that program where 
they are collecting information on the ecology of North 
America. So that is also attracting a lot of new collaborators 
and new people.
    And our master plan does include having a small visitor 
center there. And first thing I would say, if you haven't been, 
please come. We would love to show it off to you. It is a 
really fascinating facility. It was a calvary remount station 
back in the early 1900s, so it has some really great history. 
And there are people that want to come in and learn about the 
history, they want to learn about the programs we are doing, 
and we think we can do that with some guided tours. We do 
actually provide guided tours by docents now. And so we are 
working to open it up, but we want to maintain the core 
mission, which is science, and make sure that whatever we do to 
open it up doesn't interfere with that primary mission.
    The Chairman. Okay. I am glad you mentioned about the 
docents. That is one of the things that I found certainly at 
the zoo, at all of the Smithsonians, at the Library of 
Congress, or whatever. Before I came to this job actually, I 
was the official historian of Michigan and we had the 
historical center in downtown Lancing. I am going to tell you, 
we could never have run that operation and they can't today 
without the volunteers and without the docents. It is just 
remarkable the passion that these folks feel and how great they 
get at their jobs, and they do a wonderful job.
    Just my last question. I know I am a little over my time 
here. But to Mr. Maddy, just listening to you go through as you 
mentioned the very lengthy, rather exhaustive accreditation 
process that your organization has, and does anyone ever lose 
their accreditation? Maybe you don't want to mention anyone 
specifically, it would seem like that would be an uncommon 
thing, but yet going through that kind of, as I say, an 
exhaustive process that you have, certainly some people 
probably just--some organizations, facilities, just don't make 
it.
    Mr. Maddy. Yes. Unfortunately, it is--well, fortunately it 
is rigorous, and it is every 5 years. Being accredited isn't 
forever. It is until the next accreditation inspection and 
review process.
    But, yes, the Accreditation Commission meets every 6 
months, roughly. They hear on average 25 cases each time they 
meet. That is roughly 50 a year. And typically in a year there 
will be institutions whose accreditation is suspended for a 
year, we call that tabling, because there are outstanding 
concerns that have not been fully addressed. And from time to 
time institutions are not, even with a year's grace, are not 
able to overcome those concerns and they do lose their 
accreditation.
    The Chairman. Thank you very much.
    I recognize the ranking member, Mr. Brady.
    Mr. Brady. Thank you, Madam Chairman.
    First of all, for full disclosure, I always wanted to be a 
director of the zoo in Philadelphia, Pennsylvania. But I would 
be doing it a little bit differently. I would have my khaki 
uniform, with my short pants and the crop, the camouflage Jeep, 
and I would have an animal with me everywhere I go. I don't 
know whether it would be that naked rat, but a cub or whatever, 
because every time I see, like, our director of the zoo, or not 
necessarily him, but a lot of the people that work at the zoo, 
they always have a cub or something. That is a great promo. I 
mean, nothing better than that, than the show and tell.
    And the only time I leave my office to vote or go to the 
hearings on this committee or other committees is when there is 
zoo day. And I go over there, and the last time I saw the 
little chimpanzee and they had the lion cub. I mean, that is a 
great promo. You ought to think about that, or maybe you need 
an assistant, you know, at the end of my life here. It seems 
the only uniform you guys have here is beards, which is fine. I 
could grow a beard.
    But I just got a couple of little questions. We had that 
terrible problem with the deaths of the animals and somebody 
had mentioned early on that it might have been budgetary. But I 
also hear it wasn't budgetary. They wanted to blame it on the 
sequester, whatever. But it was maybe administrative issues. 
Have we addressed that? I mean, can you tell me, you know?
    Mr. Kelly. Yes, sir. We have, like every agency, are 
responsible for managing our resources as carefully as 
possible. I made decisions to make sure we stay within our 
budget and made a number of cuts that didn't impact frontline 
animal care. And it was as we were raising more money, but we 
want to be as lean an operation as possible. So I actually, 
after having arrived 4 years ago, I reduced staff in 
administration, in communications, in various departments. I 
have never cut frontline staff.
    Having said that, the budget that we have now provides for 
us to continue having great animal care and grow our basis. 
Budget uncertainty is the worst thing in running an institution 
like ours, and now that we have budget certainty we can move 
forward and build upon that basis. I would also add that, you 
know, I am close to the Philadelphia Zoo. I take great advice 
from your director, Vic Dewan. I consider him a----
    Mr. Brady. Don't tell him I want to be the director, 
please. He won't let me back.
    Mr. Kelly. I am afraid the secret is out. But Vic is a 
great example of what we are emulating, is to build upon a 
strong Federal base and utilize selling of more stuffed panda 
bears and carousel rides, and plow that back in such a way that 
we can support the research mission going forward and actually 
leverage it.
    Mr. Brady. Mr. Maddy, you mentioned something about the 
Department of Agriculture. They did a test. They gave us a 
clean bill of health in the zoo prior to those animals' deaths, 
you know, the problem that we had with the animals that were 
killed. I mean, did they miss something?
    Mr. Maddy. No, I don't think so. The U.S. Department of 
Agriculture inspects 3,000 facilities that display animals for 
the public to see, and it is not the multiple-personnel, 
multiple-day kind of inspections. It is a different kind of 
inspection. But, no, I don't think they missed something here, 
because the conditions under which the National Zoo is holding 
and caring for its animals, it meets our standards, it meets 
USDA standards. But there is mortality in the collection every 
day because it is a living collection.
    Mr. Brady. Thank you. One last question. I have a major 
peeve with our zoo. We lost our elephants. You walk into the 
Philadelphia Zoo, you see a great big sculpture of an elephant, 
but we don't have any elephants. I have four grandchildren. Two 
of them saw elephants. The other two, being younger, won't get 
a chance in Philadelphia to see my elephants. I want to come 
down and let them see the elephants in your zoo.
    I would imagine that was an area issue, we weren't big 
enough to have them. I think we sent them out to Arizona, you 
know. You have, like, four of them now, right?
    Mr. Kelly. Yes, sir. We have four elephants, and we are 
actually taking on three more that are being transferred to us 
from the Calgary Zoo, all with private funding. The important 
thing is every zoo, every well-run, accredited zoo needs to 
make choices and decisions about the animals that they can care 
for best. At your Smithsonian National Zoo we made a decision 
almost a decade ago that we were going to focus on a species 
that needed help, Asian elephants, so we committed a lot of 
resources, a lot of taxpayer resources and private resources 
and land to build a world-class Asian elephant facility.
    Meanwhile, we decided not to be the polar bear 
conservation, in the polar bear business, but Philadelphia Zoo 
is, and so that is an example of the tradeoff that we make. I 
think Vic Dewan is making and the board of the Philadelphia Zoo 
are making those tough decisions, but that doesn't preclude 
elephants from coming back to Philadelphia when the right space 
and the right time--
    Mr. Brady. Yeah, we are looking to enlarge, you know. 
Again, I want to bring the two grandchildren who never saw a 
live elephant, I want to bring them down here to see them. When 
I visited your zoo a few years ago they brought me back to see 
the elephants and there was a mother and a daughter and a bull. 
You can't get near the bull. You know, nobody can get near the 
male elephant. And they brought us into this room and we went 
back there and they sat us there, and here they came.
    Well, the first thing I did was look for the exit. They are 
massive. They are magnificent animals. So I would like to see 
us get them back, but meanwhile you get another customer to 
come to your zoo.
    Thank you all. Thank you.
    The Chairman. Thank the gentleman. And just before we go to 
Mr. Vargas, we had the same thing at the Detroit Zoo with our 
elephants. Well, our director made the decision, you know, they 
were standing on concrete so many hours in the day. They were 
getting arthritis in their legs and all these different kinds 
of things. And it was very traumatic for the community when we 
lost our elephants, but we understood the decision that he 
made. So as you say, the directors have to make their 
decisions.
    The chair recognizes Mr. Vargas from California.
    Mr. Vargas. Thank you very much, Madam Chair. I appreciate 
it. Come to San Diego. We have them all. We have the elephants. 
We have the polar bears. We have naked rats and mice. In fact, 
all our animals are naked. We don't have the naked guy. That 
guy is in New York.
    I am very much in favor of zoos. I have lived in New York, 
and they have the Bronx Zoo, which is a magnificent zoo also. 
And I have been to your zoo here, which is magnificent. And of 
course we have the best one, the world famous San Diego Zoo, 
which really is--it is a jewel in San Diego. We love it. It is 
fantastic. We also have the wild animal parks.
    Mr. Brady. Excuse me. Philadelphia has the first zoo.
    Mr. Vargas. And a wonderful zoo.
    And my daughters--in fact, you have a beautiful picture 
here I want to make sure I share with her--I have a 10-year-old 
daughter and a 17-year-old. My 10-year old loves the giraffe, 
and we have a picture at home of my wife and I actually feeding 
the giraffes at the wild animal park. We had a chance to do 
that a number of years ago.
    And I thought it was outrageous what the Copenhagen Zoo 
did. You know, it certainly struck a chord I think in 
everybody's heart around the world that sees these animals as 
gentle giants. And then how they did it. They dissected it in 
front of children and fed it to these lions. And no disrespect 
to the lions. In fact, some of those lions lost their lives in 
a very inglorious way themselves.
    I know that the Europeans have a different view than we do 
with respect to the purity of lions and animals and they didn't 
want to have inbreeding going on. Of course, there are other 
ways to do that. There are contraceptives that they can use 
with the animals. There are ways that they can move them so 
they don't have to kill the animals.
    But I have to say, I mean, it just seemed outrageous what 
they did. Could you comment on that? My daughter was so upset 
about that: Are they going to do that to our giraffes? And I 
assured her that they wouldn't do it, and I hope that my 
assurances are correct. I mean, in San Diego, I have to tell 
you, I am confident in San Diego we wouldn't do that. We 
wouldn't do that. The outcry would be absolutely outrageous, so 
many of us that belong to the zoological society there would be 
absolutely outraged. We wouldn't allow that to happen.
    Mr. Kelly. And you are correct. In fact, we have a written 
policy at your Smithsonian National Zoo, I approve every 
euthanasia. And we do euthanize animals when they are 
suffering, just as you would your dog or your cat. It is our 
written policy, and I would never approve at Smithsonian 
National Zoo that we would euthanize an animal for population 
management purposes as was done at the Copenhagen Zoo.
    You are exactly correct. In Copenhagen and in that part of 
Europe they have a different philosophy about how to manage 
animals. It is based in science, but it is against our culture 
to use that same policy. And in fact at the National Zoo we do 
use contraception, we do use social separation as a way to 
manage that.
    You mentioned in the early part of the hearing that they 
could have sent those animals to other zoos. There were other 
zoos in Europe that offered to take them, and the director 
chose not to take that option. I can't get in his head. I know 
him, but I don't know why he didn't take that option.
    Mr. Vargas. That is something that I have never seen it 
here in the United States. That is something that I imagine 
wouldn't happen. We also have, for good or ill, we do have also 
reserves or areas where people take animals. I mean, people 
unfortunately have wild animals in their homes, and every so 
often they are discovered and they are taken from them and they 
are put in these places where they preserve them. I mean, we 
wouldn't do this, right, we wouldn't go around trying to figure 
out how to kill these animals for no reason? Are there any zoos 
in the United States that would follow the Copenhagen model? 
Can anyone answer that?
    Mr. Maddy. Not that I am aware of.
    Mr. Vargas. Not that you are aware of.
    Okay. I mean, it is interesting because zoos are 
controversial, as everything is. We had a very wealthy 
individual in San Diego donate a lot of money to the 
university, at one of the universities, to set up a school for 
engineers, and someone criticized him for that. So I know now 
that whatever you do it will be criticized. I mean, this is his 
philanthropy, and he was criticized for it. So everything is 
controversial in my opinion now.
    That being said, zoos I think are wonderful places where 
children learn about animals, to respect them, respect nature. 
They are willing later on to make sacrifices themselves, to 
give money to preserve animals in the wild, also to preserve 
them through zoos. I think they are wonderful places. But to 
have this sort of thing happen I think sets us all back, and I 
hope that within your groups as you speak among your peers that 
that word would get out to others, that I think it was very 
damaging to zoos around the world.
    Thank you, Madam Chair.
    The Chairman. Thank you all very much for coming. The zoo 
is a fantastic thing. And, you know, as has been mentioned and 
I appreciate the questions, the very insightful questions about 
sometimes we hear about the death of the animals. And I was 
just reading an article that appeared here today, the headline 
is, ``Why are baby animals dying at the National Zoo.'' But 
when you read the article, it is not anywhere really as what 
the headline is really saying. Here is the one line here. ``The 
national kingdom is a rough, brutal, and fatal place even in 
controlled environments like zoos and even for species that are 
cute and cuddly.''
    And I mentioned to you that I had the great opportunity of 
having Dr. Murray, your chief veterinarian, on my cable show 
last week, and she was talking about the bear sloths, where the 
mother bear had ate, was it one or two of the--two? But she 
mentioned to me if this was in nature, all of them would have 
been gone.
    So it really is for us, I think, to keep reminding folks of 
the kind of business that you are in, and sometimes these 
sensational stories, we have to put them in perspective. But I 
certainly appreciate your comment about the Copenhagen Zoo.
    And just one other issue that I thought was sort of--when I 
came to visit you last, it was just several days after you had 
recaptured Rusty the red panda. Talking about social media, 
that had to be the biggest social media event going on in 
Washington, D.C., when Rusty escaped. And so I now know how 
Rusty got out of his enclosure, because if you go there, along 
the back is all this real high, black bamboo, and they 
theorized that there was a real heavy rain the day he got out 
and the black bamboo must have come down a little. Man, that 
thing saw his way out, and he was gone. They finally picked him 
up in Dupont Circle or somewhere. He was off.
    The amount of hits that you had, somebody said there were 
30 million hits about where is Rusty the red panda. It was on 
all the national talk shows. I just mentioned that in closing 
because I think that was a very vivid demonstration, indicative 
of how the people certainly of Washington, D.C., and our 
Nation's Capital and throughout our country feel about our 
National Zoo and our zoos and what a national treasure they are 
and how important it is. And before I close I see Mr. Maddy 
waving his finger.
    Mr. Maddy. Just very quickly, Madam Chair. Thank you. And I 
will take you back to the comments of Mr. Brady at the 
beginning. Zoo Day this year is in late May. We will be in the 
Rayburn House Office Building. We will be downstairs in the 
courtyard, in the cafeteria. I would guess that if last year is 
any guide there will be several thousand of your colleagues and 
your staff there enjoying a wildlife experience in an unusual 
way, and we hope that all of you will join us then.
    The Chairman. Well, thank you for reminding us of that 
certainly, and I know Mr. Brady will be there in his khaki 
shorts and his outfit, with his whip there. So he will be 
ready.
    At any rate, we thank you so much. This committee looks 
forward to continuing to work with the zoo, of course the 
entire Smithsonian. So if there are issues that you would like 
to talk to us about or other ways that this committee can, as 
we are exercising our oversight responsibilities, help amplify 
a very positive message as well, that is part of our 
jurisdiction and our desire as well.
    And so without objection, all members will have 5 
legislative days to submit to the chair additional written 
questions for the witnesses if there are any so that they can 
be made part of the record.
    And with that, the hearing is adjourned. Thank you.
    [Whereupon, at 11:42 a.m., the committee was adjourned.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
